                                                                             Report No. DODIG-2014-010




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              NOVEMBER 22, 2013




                     U.S. Army Corps of Engineers
                     Transatlantic District-North Needs To
                     Improve Oversight of Construction
                     Contractors in Afghanistan




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       U.S. Army Corps of Engineers Transatlantic
                                       District-North Needs To Improve Oversight of
                                       Construction Contractors in Afghanistan


November 22, 2013                                      Finding Continued

Objective                                              inspection process; and USACE TAN technical inspections of
                                                       contractors’ construction efforts were limited. This occurred
This audit is one in a series of reports on            because current QA officials did not always have critical QA
military construction (MILCON) projects in             documents available before their arrival and could not explain
Afghanistan. Our objective was to determine            why QA requirements were not fully executed from the
whether DoD provided effective oversight of            projects’ start.    However, the area engineer stated that
MILCON projects in Afghanistan. Specifically,          documenting the QA process was secondary and that completing
we determined whether U.S. Army Corps                  the SOF MILCON projects was the top priority. As a result,
of Engineers (USACE) properly monitored                there is an increased risk that, although the two SOF MILCON
contractor performance during construction             projects will get completed, the projects may not meet contract
and adequately performed quality assurance             requirements.
(QA) oversight responsibilities pertaining to
two Special Operations Forces (SOF) MILCON
projects at Bagram Airfield, Afghanistan.              Recommendations
                                                       Among other recommendations, we recommend that the

Finding                                                Commander, USACE, Transatlantic Division, provide oversight to
                                                       the Commander, USACE TAN QA program in Afghanistan. We also
USACE Transatlantic District-North (USACE              recommend that the Commander, USACE TAN, require project
TAN) (Bagram Area Office) QA and contracting           engineers to approve contractors’ quality control plans and
officials’ oversight of two SOF MILCON                 develop QA plans; require project engineers and construction
projects at Bagram Airfield, valued at                 representatives to maintain complete QA records; and verify that
$37.6 million, was not conducted in                    contractors are fully executing the three-phase inspection process
accordance with the Federal Acquisition                and that technical inspections of contractors construction efforts
Regulation and USACE guidance. Since 2010,             are performed.
when the projects were initiated, area and
resident engineers did not provide project
engineers and construction representatives             Managment Comments and
with a Statement of Understanding and
                                                       Our Response
Compliance; project engineers did not always
follow contract oversight responsibilities,            Management comments partially addressed the recommendations.
were working with incomplete contractors’              USACE agreed to complete Statements of Understanding and
quality controls plans, did not prepare QA             Compliance, approve contractors quality control plans, and
plans, and could not substantiate that                 maintain complete records in response to the recommendations.
contractors fully executed the three-phase             However, we request management provide additional comments
                                                       to Recommendation 1 by December 20, 2013. Please see the
                                                       Recommendations Table on the next page.


Visit us on the web at www.dodig.mil


                                                                           DODIG-2014-010 (Project No. D2012-D000JO-0221.000) │ i
                   Recommendations Table
                                                                    Recommendations       No Additional
                                         Management                 Requiring Comment   Comments Required
                    Commander, U.S. Army Corps of Engineers         1
                    Transatlantic Division
                    Commander, U.S. Army Corps of Engineers                             2a, 2b, 2c, 2d, 2e, 2f
                    Transatlantic District North

                   *Please provide comments by December 20, 2013.




ii │ DODIG-2014-010 (Project No. D2012-D000JO-0221.000)
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500


                                                                               November 22, 2013

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: U.S. Army Corps of Engineers Transatlantic District-North Needs To Improve
	        Oversight of Construction Contractors in Afghanistan
	        (Report No. DODIG-2014-010)

We are providing this final report for your review and comment. U.S. Army Corps of Engineers,
Transatlantic District-North quality assurance officials’ oversight of two Special Operations
Forces military construction projects at Bagram Airfield, valued at $37.6 million, was not
conducted in accordance with the Federal Acquisition Regulation and U.S. Army Corps of
Engineers guidance.

We considered management comments on a draft of this report when preparing the final
report. DoD Directive 7650.3 required that recommendations be resolved promptly.
Comments from the Deputy Commander, U.S. Army Corps of Engineers, Transatlantic
Division were generally responsive; however, comments on Recommendation 1 were only
partially responsive. Therefore, we request additional comments on this recommendation by
December 20, 2013.

Please send a portable document format (.pdf) file containing your comments to
audrco@dodig.mil. Copies of your comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the /Signed/ symbol in
place of the actual signature. If you arrange to send classified comments electronically,
you must send them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-8905
(DSN 664-8905).




	                                             Amy J. Frontz
	                                             Principal Assistant Inspector General
	                                               for Auditing

cc:
Commander, U.S. Central Command
Commander, U.S. Forces-Afghanistan
Commander, U.S. Army Central
Commanding General, U.S. Army Corps of Engineers




                                                                                             DODIG-2014-010 │ iii
                  Contents
                  Introduction______________________________________________________________________________1
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Criteria for Quality Assurance_ _________________________________________________________________3
                  Review of Internal Controls_____________________________________________________________________5

                  Finding. U.S. Army Corps of Engineers Transatlantic
                  District-North Needs To Provide Better Oversight of
                  Military Construction Projects in Afghanistan___________________6
                  Oversight of Projects Needs Improvement_____________________________________________________7
                  Contractors Did Not Fully Execute the Three-Phase Inspection Process__________________ 12
                  Needed Technical Inspections Were Limited________________________________________________ 14
                  Better Contracting Officer’s Representatives’ Oversight Was Needed_____________________ 15
                  Stronger Quality Assurance Oversight Was Needed_________________________________________ 18
                  Special Operations Forces’ Concerns With Project Oversight______________________________ 19
                  Oversight of Contractor Quality Control Should Be Improved_____________________________ 19
                  Lack of Oversight Identified in Previous Audits_____________________________________________ 19
                  Conclusion______________________________________________________________________________________ 20
                  Recommendations, Management Comments, and Our Response _________________________ 21

                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 25
                      Use of Computer-Processed Data_ _______________________________________________________ 26
                      Prior Coverage _ ___________________________________________________________________________ 26
                  Appendix B. Diagram of Special Operations Forces Complex at Bagram Airfield_ _______ 27

                  Management Comments_____________________________________________________ 28
                  U.S. Army Corps of Engineers_________________________________________________________________ 28

                  Acronyms and Abbreviations______________________________________________ 31




iv │ DODIG-2014-010
                                                                                                                                      Introduction




Introduction
Objective
This audit is one in a series of military construction (MILCON) projects in Afghanistan.
Our overall objective was to determine whether DoD was providing effective
oversight of MILCON projects in Afghanistan. Specifically, we determined whether the
U.S. Army Corps of Engineers (USACE) was properly monitoring contractor performance
and adequately performing quality assurance (QA) oversight responsibilities for two
MILCON projects pertaining to Special Operations Forces (SOF) at Bagram Airfield.
See Appendix A for the audit scope and methodology, and prior coverage related to the
audit objective.


Background
U.S. Army Corps of Engineers
The USACE mission is to provide vital public engineering services to strengthen our
Nation’s security, energize the economy, and reduce risks from disasters. According
to DoD Directive 4270.5, “Military Construction,” February 12, 2005, USACE is the
Army’s construction agent for the design or construction execution responsibilities
associated with MILCON program facilities and is the lead construction agent supporting
the U.S. Central Command area of responsibility, including Afghanistan. As the lead
construction agent, USACE is responsible for performing oversight of MILCON
contractors and conducting contract administration.1

USACE Transatlantic Division, in Winchester, Virginia, is responsible for MILCON
supporting U.S. forces in the Middle East and Central Asia. The Transatlantic Division
has three districts: Transatlantic District-North, in Kabul, Afghanistan; Transatlantic
District-South, in Kandahar, Afghanistan; and Middle East District, in Winchester, Virginia.
USACE Transatlantic District-North (TAN) administers construction projects at Bagram
Airfield, Afghanistan.2




	1	
    FAR 46.104, “Contract Administration Office Responsibilities,” states that contract administration responsibilities include
    developing and applying efficient procedures for performing Government contract QA actions under the contract,
    performing all actions necessary to verify whether the supplies or services conform to contract quality requirements, and
    maintaining QA records.
	2	
    USACE TAN, Bagram Area Office is responsible for conducting the oversight and QA for construction projects at Bagram
    Airfield. In July 2013, Transatlantic District-North and Transatlantic District-South was combined and renamed Transatlantic
    Afghanistan District. For this report we used TAN to refer to the Transatlantic District-North in Kabul, Afghanistan.




                                                                                                                                   DODIG-2014-010 │ 1
Introduction



                 Selection of Military Construction Projects
                 In July 2012, USACE TAN officials provided a list of 43 ongoing MILCON projects at
                 Bagram Airfield, Afghanistan. Of the 43 projects, valued at about $542.2 million, we
                 selected projects that were individually valued at more than $10 million and had
                 not been selected in prior audits. Twenty-three projects met the above criteria. We
                 non-statistically selected 2 of the 23 projects totaling about $37.6 million for review. The
                 projects selected were:

                                •	 Project 70037, SOF Headquarters (HQ) Complex (Phase I) - Contract
                                    W912ER-10-C-0003. The purpose of the project was to construct a Joint
                                    Special Operations Task Force HQ Complex.                                 Primary facilities in this
                                    complex include seven buildings: joint operations center, medical clinic,
                                    warehouse, latrines, and three relocatable barracks.                                       USACE Middle
                                    East District awarded contract W912ER-10-C-0003 to Elektrik Makine
                                    Ticaret A.S., located in Turkey, on February 12, 2010. Including the contract
                                    modifications, the project was valued at $17.7 million.                                       The project,
                                    planned for completion in March 2013, is expected to be completed in
                                    December 2013.

                                •	 Project 72126, SOF Command and Control Facilities (Phase II) - Contract
                                    W912ER-10-C-0048. The purpose of the project was to construct operational
                                    support facilities for the Joint Special Operations Task Force HQ. Primary
                                    facilities in this complex include six buildings:                             administration; morale,
                                    welfare, and recreation center; communication center; vehicle maintenance;
                                    tactical operations center; and an entry control point. USACE Middle East
                                    District awarded contract W912ER-10-C-0048 to METAG Insaat Ticaret A.S.,
                                    in Turkey, on September 24, 2010. Including the contract modifications,
                                    the project is valued at $19.9 million. The project, originally planned for
                                    completion in March 2013, is expected to be completed in December 2013.

                 After awarding the two SOF MILCON projects,3 USACE Middle East District transferred
                 the contracting authority to the Chief of Contracting, USACE TAN. Chief of Contracting
                 officials designated the area engineer or resident engineer as administrative contracting
                 officer and project engineers as Contracting Officer’s Representatives (CORs).4 The
                 COR is a member of the project delivery team and is responsible for assuring the work
                 is complete in accordance with contract requirements and the Federal Acquisition
                 Regulation (FAR).

                 	 3	
                        See Appendix B for a diagram of the SOF Complex at Bagram Airfield.
                 	4	
                        The Administrative Contracting Officer is authorized to administer a contract and execute modifications to that contract.
                        A COR is a designated authorized representative of the contracting officer with authority to take all actions in connection
                        with the administration of the contract.


2 │ DODIG-2014-010
                                                                                                                                    Introduction



Criteria for Quality Assurance
FAR Subpart 46.4, “Government Contract Quality Assurance,” states that Government
contract QA shall be performed as may be necessary to determine that the supplies
or services conform to contract requirements. FAR Subpart 46.1, “General,” states
that Government contract QA consists of various functions                                     pertaining to quality and
quantity. USACE Engineer Regulation 1180-1-6, “Construction Quality Management,”
September 30, 1995, states that QA is the system by which the government fulfills
its responsibility to be certain that the contractors’ quality control (QC) is functioning
and that the specified end product is realized.

The Afghanistan Engineer District,5 U.S. Army Corps of Engineers District Level
Quality Assurance Plan for Construction (District-Level QA Plan for Construction),
revised April 2011, states that obtaining quality construction is the responsibility
of both the construction contractor and the government with the mutual goal of
providing a quality product conforming to contract requirements.

USACE TAN officials responsible for managing and executing construction contracts
include the Commander, USACE TAN, and the Chief of Construction.6 Furthermore,
USACE TAN construction officials, at Bagram Area Office, with QA responsibilities
include the following:

              •	 Area Engineer - works directly for the Chief of Construction and, within his
                  or her area of responsibility, manages the mission and personnel. The area
                  engineer works through resident engineers to properly manage projects and
                  personnel and ensures that QA procedures are implemented.

              •	 Resident Engineer - manages the area office on behalf of the area engineer,
                  provides guidance on the implementation of an effective QA program, and
                  sees that the program is successfully executed. The resident engineer is also
                  responsible for executing the mission.

              •	 Project Engineer - provides overall project management from project start to
                  completion. The project engineer, who also serves as the COR, is responsible
                  for QA of the project with duties that include preparing supplemental project
                  QA plans and revisions as necessary, reviewing and approving contractor’s
                  QC plans, conducting pre-construction and weekly progress meetings with


	5	
      Now known as USACE Transatlantic District.
	6	
      The Chief of Construction is responsible for providing oversight of all field office personnel through area and resident
      engineers and provides personnel to ensure that appropriate support is provided to accomplish the mission.




                                                                                                                                 DODIG-2014-010 │ 3
Introduction



                                 contractors, and ensuring the proper management and documentation of
                                 projects and meetings.

                             •	 Construction Representative - works directly for the project engineer
                                 and resident engineer and serves as the “eyes and ears” on the project site.
                                 The construction representative provides the continuous oversight on the
                                 contractors’ QC program through QA inspections, coordinates the technical
                                 inspections of contractors’ construction efforts—mechanical, electrical, and
                                 structural systems as required, and prepares QA reports for inspections and
                                 documents daily construction progress.

                 Key Elements of Quality Assurance
                 According to the District-Level QA Plan for Construction, QA officials are required to
                 sign a Statement of Understanding and Compliance indicating that they understand
                 the responsibilities and duties of their position. Before physical work begins, the
                 resident engineer is to arrange meetings with the contractor to discuss areas such as
                 contractors’ submittal of key contracting documents, QC plans, and the recording
                 of various contractor and government meetings. Project engineers are to develop
                 supplemental QA plans that match the contractors’ QC plans and maintain records
                 of the contractors’ three-phase inspection process.7                                The contractors’ three-phase
                 inspection process includes meetings between QA officials and contractors to
                 discuss all definable features of work (DFOW) pertaining to the project.                                              In the
                 contracting officer’s delegation memorandum, CORs are required to conduct contract
                 oversight responsibilities that include verifying contractors performed the technical
                 requirements of the contract, perform monthly surveillance inspections, and
                 maintain records that describe the performance of their duties.


                 Logistics Civil Augmentation Program
                 Because USACE TAN technical specialists (engineers) needed for specific areas were
                 not always available at the Bagram Area Office, QA officials relied on technical support
                 from the Logistics Civil Augmentation Program (LOGCAP) contractor to conduct such
                 inspections.8 The LOGCAP contractor provides operation and maintenance services for
                 buildings on installations throughout Afghanistan. As part of contract requirements, the
                 LOGCAP contractor conducts technical inspections before assuming the maintenance


                 	7	
                     The three-phase inspection process consists of preparatory, initial, and follow-up inspections to ensure that all
                     construction, suppliers, and test laboratories comply with the applicable drawings, specifications, approved submittals, and
                     authorized changes to the contract. The contractor is to document each inspection with meeting minutes.
                 	8	
                     The LOGCAP contractor usually provided one to five technical specialists to conduct an inspection. Inspections occurred at
                     least three times throughout each project.




4 │ DODIG-2014-010
                                                                                            Introduction



responsibility for any buildings constructed by another contractor.         During these
technical inspections, the LOGCAP contractor may identify substandard construction
(mechanical, electrical, and structural) requiring rework before the LOGCAP contractor
will assume responsibility for the maintenance of the building. When the LOGCAP
contractor identifies any deficiencies, the LOGCAP contractor provides the information
to USACE project engineers for corrective action.          The project engineers task the
responsible construction contractor to take corrective action on the deficiencies,
and the construction representatives follow up to verify that the deficiencies
were corrected.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating
as intended and to evaluate the effectiveness of the controls. We identified internal
control weaknesses pertaining to USACE TAN.           Specifically, USACE TAN QA and
contracting officials did not provide sufficient oversight to ensure that the
District-Level QA Plan for Construction and the FAR requirements were followed.
This occurred in part because even though the projects were initiated more than two
years ago, current QA officials could not explain why QA requirements were not
fully executed from the projects’ start.      However, the area engineer stated that
documenting the QA process was secondary and that completing the SOF MILCON
projects was the top priority. We will provide a copy of the report to the senior
official responsible for internal controls at USACE TAN.




                                                                                        DODIG-2014-010 │ 5
Finding




                 Finding
                 U.S. Army Corps of Engineers Transatlantic
                 District-North Needs To Provide Better Oversight of
                 Military Construction Projects in Afghanistan

                 USACE TAN (Bagram Area Office) QA9 and contracting officials’ oversight of two SOF
                 MILCON projects at Bagram Airfield, valued at $37.6 million, was not conducted
                 in accordance with the FAR and USACE guidance. For example, area engineers did
                 not ensure that QA procedures were fully implemented, and resident engineers
                 did not fully execute QA responsibilities. Specifically, since 2010, when the projects
                 were initiated:

                               •	 Area and resident engineers did not provide project engineers and
                                   construction representatives with a USACE required Statement of
                                   Understanding and Compliance for QA officials to acknowledge their
                                   understanding of their responsibilities and duties.

                               •	 Project engineers have been working with incomplete contractors’ QC plans;
                                   however, construction should not have been initiated without completed QC
                                   plans. Also, project engineers did not prepare USACE-required QA plans for
                                   the surveillance of the projects.

                               •	 The construction contractors initially did not have a three-phase inspection
                                   process in place but during the course of construction, contractors
                                   developed a partial listing of DFOW. However, project engineers did not have
                                   79 of 138 possible contractors’ meeting minutes pertaining to the DFOW
                                   that would demonstrate the contractors executed the three-phase inspection
                                   process.

                               •	 USACE TAN technical specialists inspection of electrical, mechanical or
                                   structural features did not occur until day 497 on one project and day 504 on
                                   the other project.

                               •	 Project engineers did not perform the contract oversight responsibilities
                                   identified and required by the contracting officer such as verifying
                                   contractors performed technical requirements of the contracts and
                                   performing inspections of those technical requirements.


                 	9	
                       USACE TAN QA officials consisted of area engineers, resident engineers, project engineers, and construction representatives
                       overseeing the construction of selected projects.

6 │ DODIG-2014-010
                                                                                                   Finding



The oversight shortfalls occurred in part because even though the projects were
initiated more than 2 years ago, current QA officials did not always have critical
QA documents available before their arrival and could not explain why QA
requirements were not fully executed from the projects’ start.         However, the area
engineer stated that documenting the QA process was secondary and that completing
the SOF MILCON projects was the top priority.

As a result, although the two SOF MILCON projects will get completed, there is an
increased risk that the projects may not meet contract requirements. Additionally, an
interim evaluation of mechanical, electrical, and structural features in November 2011,
conducted by USACE TAN officials more than 1 year after the projects’ initiation, rated the
contractors’ overall work as “unsatisfactory.” In April 2013, the area engineer stated that
the contractors’ work had not significantly improved, further highlighting the increased
risk that contract requirements may not be met.


Oversight of Projects Needs Improvement
USACE TAN (Bagram Area Office) QA and contracting officials’ oversight of two SOF
MILCON projects at Bagram Airfield was not conducted in accordance with the FAR
and USACE District-Level QA guidance.        Specifically, Statements of Understanding
and Compliance were not in place; contractors’ QC plans were incomplete; QA plans
needed to be prepared; contractors did not fully execute the three-phase inspection
process; USACE TAN technical specialists (engineers) did not regularly perform
inspections of contractors’ work; and project engineers did not always follow contract
oversight responsibilities. Furthermore, better validation of contractors’ construction
efforts was needed.


Statements of Understanding and Compliance Were Not
in Place
The USACE District-Level QA Plan for Construction requires area and resident
engineers to provide a copy of the District-Level QA Plan for Construction guidance
to each QA official before a QA official works on a USACE TAN project. The District-
Level QA Plan for Construction also requires each QA official to sign a Statement of
Understanding and Compliance, which states that the QA official has read and
understands the responsibilities and duties of his or her position.

For both projects, area and resident engineers stated that QA officials were aware of
the District-Level QA Plan for Construction guidance, but area and resident engineers
did not require QA officials to sign a Statement of Understanding and Compliance. Area



                                                                                          DODIG-2014-010 │ 7
Finding



                 and resident engineers, as well as project engineers and construction representatives,
                 acknowledged that they were not familiar with the Statement of Understanding and
                 Compliance requirements.      However, USACE QA officials’ acknowledgement of, and
                 compliance with, the Statement of Understanding and Compliance is one of the first
                 steps in implementing an effective QA program. As a result, QA officials responsible
                 for oversight of the two SOF MILCON projects were not fully aware of their QA duties;
                 this lack of awareness contributed to their inability to ensure the contractor adequately
                 executed contract quality requirements for the two SOF MILCON projects. Therefore,
                 the Commander, USACE TAN, should establish written procedures for a recurring
                 external verification that QA officials assigned to SOF MILCON projects complete the
                 required Statement of Understanding and Compliance.


                 Contractors’ Quality Control Plans Were Incomplete
                 Contractors’ QC plans were required to be complete when submitted, and the project
                 engineer was required to reject any incomplete QC plans. However, each of the 10
                 versions of the QC plans submitted by the two SOF MILCON contractors was missing
                 key components. The project engineer failed to
                 reject two incomplete QC plans, instead assigning        Contractors’ QC plans were
                 them a grade of “B” or “A”; this assigning of a grade   required to be complete when
                 authorized the contractor to begin construction.          submitted, and the project
                                                                            engineer was required to
                 However, the QC plans for the HQ Facilities project        reject any incomplete QC
                 were still incomplete 42 months after construction       plans. However, each of the
                 began, and the QC plan for the Command and              10 QC plans submitted by the
                                                                         two SOF MILCON contractors’
                 Control Facilities project remained incomplete 36
                                                                         was missing key components.
                 months after construction began.

                 The District-Level QA Plan for Construction states that the contractor’s QC plans must
                 be approved before commencement of physical work and approved by the project
                 engineer using ENG Form 4025-R, “Transmittal of Shop Drawings, Equipment Data,
                 Material Samples, or Manufacturer’s Certificates of Compliance.” The District-Level QA
                 Plan for Construction also provides guidance on the minimum contents of the QC plan, to
                 include qualifications, personnel responsibilities, procedures for tracking the three-
                 phase inspection process, and a list of the DFOW. QC plans are approved or disapproved
                 using action codes.

                 Project engineers initially reviewed and approved the contractors’ QC plans, but
                 based on the action code given by the project engineer, contractors were usually
                 required to submit additional information, along with resubmitting an updated




8 │ DODIG-2014-010
                                                                                                                                         Finding



QC plan. However, none of the QC plans were fully completed, and the contractors were
allowed to begin work. Table 1 provides a summary of contractors’ QC plans.

Table 1. Summary of Contractors’ Quality Control Plans
                               Contractors             USACE QA Officials          QC Plan            Was the
         Project1            Submittal Date of          Approval Date of           Approval           QC Plan
                                 QC Plan                    QC Plan                 Code2            Complete?
                                 04/19/2010                 05/01/2010                  E                 No
                                 05/10/2010                 06/02/2010                  C                 No

       HQ Complex                07/31/2010                 08/01/2010                  C                 No
         Project                 08/25/2010                 09/05/2010                  A                 No
                                 06/10/2012                 08/04/2012                  G                 No
                                 10/15/2012                 12/13/2012                  C                 No
                                 11/27/2010                 12/16/2010                  C                 No

   Command and                   09/22/2011                 10/16/2011                  E                 No
  Control Facilities             02/05/2012                 02/18/2012                  A                 No
                                 08/14/2012                 10/03/2012                  B                 No

	 1	
       Construction for the HQ Facilities and the Command and Control Facilities projects started on March 18, 2010, and
       October 24, 2010, respectively.
	 2	
       Action codes include “A” - Approved as submitted; “B” - Approved except as noted; “C” - Approved, except as noted,
       resubmission required; “E” - Disapproved; and “G” - Other action is required.


For the HQ Complex project, the project engineer approved the August 25, 2010, QC
plan on September 5, 2010, (action code “A”) 171 days after the contractor received
Notice to Proceed.                Although the project engineer approved the QC plan, it was
incomplete, missing key components such as DFOW,10 contractors’ signature page,
résumés, personnel responsibilities, and QC test procedures and testing frequencies.
Because the QC plan did not contain these key components, the QC plan for the HQ
Complex project should not have been approved.                                   Since that time, the contractor
submitted two additional QC plans (June 10, 2012, and October 15, 2012). However,
based on the action codes (G and C, respectively), the contractors needed to provide
additional information.                 Furthermore, these two QC plans were also incomplete—
missing signatures, DFOW, and copies of key meetings.                                       As of April 5, 2013, the
project engineer stated that the contractor has not resubmitted an updated QC plan.
Therefore, the contractors were working without a complete and approved QC plan.

For the Command and Control Facilities, the project engineer approved the QC Plan
(action code “A”) on February 18, 2012, 16 months after the commencement of physical

	10	
       DFOW is a task that is separate and distinct from other tasks and has separate control requirements. QC and QA rely on
       the assignment of definable features of work within a project.


                                                                                                                                DODIG-2014-010 │ 9
Finding



                 work. Initially, the contractor submitted a QC plan on November 27, 2010, and the
                 project engineer approved the QC plan (action code “C”). However, the contractor was
                 required to resubmit the QC plan because the plan did not include project personnel
                 and responsibilities and did not fully address control, verification, and acceptance
                 testing procedures for each specific test.      Based on the November 27, 2010, QC
                 plan having an action code “C” and being incomplete, the contractor should
                 not have initiated work on the Command and Control Facilities.               However, on
                 September 22, 2010, 10 months later, the contractor summited the next QC plan. The
                 project engineer disapproved that QC plan (action code “E”). The contractor resubmitted
                 the QC plan on February 5, 2012, which the project engineer approved (action code “A”).

                 Though the project engineer approved the February 5, 2012, QC plan, the QC plan
                 was missing key components such as DFOW, résumés of contractor personnel, and
                 management of contractors’ submittals; thus, the incomplete QC plan should not have been
                 approved. At the request of the project engineer, the contractor submitted an updated
                 QC plan on August 14, 2012. The project engineer approved the QC plan (action code
                 “B”), but that plan was also missing key elements such as résumés, letter of authorization,
                 and portions of the contract DFOW. The project engineer should have not approved the
                 August 14, 2012, QC plan.

                 Resident and area engineers stated that they were not assigned to the two SOF
                 MILCON projects at the start of the projects and could not explain why contractors’
                 QC plans were not initially approved. Also, the area engineer did not see a need for
                 updated contractor QC plans since his emphasis was to complete the projects. Because
                 the contractors’ QC plans were not approved for the two SOF MILCON projects and
                 were missing key components, the Commander, USACE TAN, should require project
                 engineers to approve complete contractors’ QC plans for MILCON projects before
                 contractors start construction and verify contractors update QC plans as needed.


                 Quality Assurance Plans Needed to Be Prepared
                 Project engineers did not develop specific QA plans for
                 surveillance of the two SOF MILCON projects at Bagram                 Project engineers
                                                                                        did not develop
                 Airfield.   FAR 46.401 requires a QA surveillance plan to
                                                                                       specific QA plans
                 be prepared in conjunction with the preparation of the                 for surveillance
                 statement of work. The plan should specify all work requiring           of the two SOF
                 surveillance and the method of surveillance. USACE’s District-        MILCON projects
                                                                                      at Bagram Airfield.
                 Level QA Plan for Construction requires a Supplemental
                 Project QA plan be produced for every construction project,
                 with consideration for factors such as complexity, duration, site accessibility, and
                 security risk. At a minimum, Supplemental Project QA plans are to include staffing,

10 │ DODIG-2014-010
                                                                                                           Finding



DFOW, QA surveillance responsibilities, job specific QA testing, and milestone
dates.    Project engineers are to develop QA plans that match the contractors’
QC plans.

In addition to not developing QA plans, project engineers were not conducting
surveillance on significant contract modifications as part of their oversight
responsibilities.        For    example,      contract     modifications   to   add   a   Sensitive
Compartmented Information Facility (a secured communications room) and
Other User Requested Changes, valued at $7.3 million, were awarded in
August 2011.        The modifications, applicable to both projects, were to be included
in buildings such as the Joint Operations Center (Figure 1) and the Communication
Center (Figure 2). However, because the project engineer did not have a QA plan
in place or take steps to develop a QA plan to reflect the additional work, the
project engineer could not provide documentation to support what work on the
contract modification required surveillance or the method of surveillance.




 Figure 1. HQ Complex (Joint Operations Center)
 Source: DoD OIG




 Figure 2. Command & Control Facilities (Communications Center)
 Source: DoD OIG

                                                                                                 DODIG-2014-010 │ 11
Finding



                 The project engineer stated that he was not assigned to the two SOF MILCON
                 projects when they were initiated more than 2 years ago and could not explain why
                 QA plans had not been developed. The project engineer stated that the construction
                 representatives relied on their prior work experience to perform QA. During our
                 audit, the project engineer was unsuccessful in developing QA plans. The project
                 engineer stated that in the August 2012 timeframe he tasked his construction
                 representatives to develop a QA plan to reflect the current status of the projects to
                 include remaining work. However, the project engineer stated that the construction
                 representatives did not provide him with a QA plan and that the overall support
                 needed to develop a QA plan was not in place. The project engineer completed his tour
                 at Bagram Airfield in December 2012, and the incoming project engineer took over
                 in January 2013.      Since a QA plan was not in place, the incoming project
                 engineer, unfamiliar with the project, was not fully aware of work requiring
                 surveillance and the method of surveillance.

                 By not having supplemental project QA plans, project engineers could not validate
                 that the contractors fulfilled contract obligations pertaining to quality and quantity
                 for the two construction projects. Furthermore, USACE TAN (Bagram Area Office)
                 QA officials cannot provide reasonable assurance that they were adequately
                 monitoring the progress and performance of the contractors.               Therefore, the
                 Commander, USACE TAN, should verify that project engineers develop Supplemental
                 Project QA Plans at project inception and update the QA plans as needed during
                 the project.


                 Contractors Did Not Fully Execute the Three-Phase
                 Inspection Process
                 Project engineers and construction representatives could not provide 79 of the
                 possible 138 contractors’ meeting minutes needed to substantiate that contractors
                 fully executed the three-phase inspection process.      The District-Level QA Plan for
                 Construction states that the purpose of the three-phase inspection process is to
                 provide a procedure for assuring that all construction, suppliers, and test laboratories
                 comply with the applicable drawings, specifications, approved submittals, and
                 authorized changes to the contract. The process consists of preparatory, initial, and
                 follow-up inspections and is primarily the responsibility of the contractor. The District-
                 Level QA Plan for Construction also requires QA officials, specifically the project
                 engineer and construction representative, to actively participate in the three-phase
                 inspection process.




12 │ DODIG-2014-010
                                                                                                                                         Finding



According to the District-Level QA Plan for Construction, the preparatory inspection
is a QC meeting with the contractor for all DFOW, whereby initial inspections provide
a check of preliminary work to ensure compliance with contract requirements.
Preparatory and initial inspections are accomplished near the beginning of each
DFOW.          The contractor documents each inspection with meeting minutes and the
project or resident engineer is required to maintain records of those minutes.

Even though the contractors did not initially have a three-phase inspection process
in place, during the course of construction, contractors developed a partial listing
of DFOW and populated the listing with the dates that some preparatory and initial
inspections were performed.11                        The listing showed 90 DFOW recorded for the
HQ Complex Facilities project and 53 DFOW recorded for the Command and Control
Facilities project (total of 143). Of the 143 DFOW recorded, the listing identified
25 DFOW that had a completion date for preparatory and initial inspections for
the HQ Complex Facilities project and 44 DFOW that had a completion date for the
preparatory and initial inspections for the Command and Control Facilities project
(total of 69). For the 69 DFOW identified as having a completion date, we requested
from the project engineer the related meeting minutes. Table 2 provides a summary
of contractors’ meeting minutes available for preparatory and initial inspections.

Table 2. Summary of Contractors’ Meeting Minutes Available for Preparatory and
Initial Inspections
          Project            Number             Number of            Number of Contractor                    Number of
                                 of             Contractor          Meeting Minutes Available                Contractor
                             Definable           Meeting                                                      Meeting
                             Features            Minutes            Preparatory           Initial             Minutes
                              of Work            Required            Meetings            Meetings            Unavailable
       HQ Complex                25                  50                   0                   0                    50
        Facilities
   Command and                   44                  88                   31                 28                    29
  Control Facilities
       Total                     69                 138                   31                 28                    79


From the 69 DFOW identified, the contractors should have prepared 69 preparatory
meeting minutes and 69 initial meeting minutes (total of 138).12 In this regard, for the
HQ Complex project, the project engineer did not have any of the preparatory or initial
meeting minutes. For the Command and Control Facilities, the project engineer had


	11	
       The listing was undated, not fully representative of all the possible DFOW pertaining to the two SOF MILCON contracts, and
       did not identify any specific building.
	12	
       Estimate based on individual meeting for each preparatory and initial inspection. Preparatory and initial meetings may
       be combined should QA personnel decide to consolidate the meetings. We did not receive evidence that any of the
       preparatory or initial meetings were combined.


                                                                                                                               DODIG-2014-010 │ 13
Finding



                 31 of the expected 44 preparatory meeting minutes and 28 of the expected 44 initial
                 meeting minutes.                 Overall, the project engineer did not have 79 of the expected
                 138 meeting minutes to support whether contractors conducted preparatory and initial
                 inspections.13 Therefore, the project engineer and construction representative could
                 not provide evidence that the contractors performed these required inspections to
                 support that contract requirements were met.


                 Needed Technical Inspections Were Limited
                 Construction representatives arranged to have USACE TAN technical specialists perform
                 a limited number of technical inspections of the contractors’ construction efforts for the
                 HQ Complex and the Command and Control projects. The inspections performed were
                 not always conducted in a timely manner. Specifically,

                                 •	 HQ Complex Facilities. QA daily reports from April 26, 2010, through
                                     December 15, 2012, recorded a total of 965 days of construction, and
                                     USACE TAN technical specialists conducted five technical inspections.
                                     The first inspection was recorded on day 497, more than 16 months after
                                     construction started.

                                 •	 Command and Control Facilities. QA daily reports from October 24, 2010,
                                     through December 31, 2012, recorded a total of 800 days of construction,
                                     and USACE TAN technical specialists conducted seven technical inspections.
                                     The first inspection was recorded on day 504, more than 16 months after
                                     construction started.

                 USACE Engineering Regulation 1180-1-6 requires QA officials to “conduct government
                 QA tests at the job-site to assure acceptability of the completed work. A sufficient
                 number of tests, but not less than 5 percent of the frequency of the contractor QC
                 tests, should be scheduled to verify contractor QC test procedures and results.” The
                 District-Level QA Plan for Construction requires construction representatives to
                 coordinate technical inspections of mechanical, electrical, and structural systems,
                 as required, drawing on the Engineering Section of USACE TAN for advice during
                 performance of the project.

                 Both projects included key mechanical, electrical, and structural features of work that
                 required technical inspections.                       However, construction representatives arranged to
                 perform only limited technical inspections. We reviewed QA daily reports to assess
                 whether USACE TAN technical specialists performed technical inspections. For the

                 	 13	
                         QA officials contacted the contractors in an attempt to collect meeting minutes, but the contractor was not able to provide
                         those minutes.


14 │ DODIG-2014-010
                                                                                                    Finding



inspections performed at the HQ Complex Facilities and the Command and Control
Facilities, construction representatives typically sought USACE TAN for technical
inspections pertaining to electrical systems and did not seek technical specialists for
inspections of key features such as mechanical, plumbing, and heating, ventilation, and air
conditioning. Furthermore, construction representatives relied on their own experience
to conduct the inspections, even if they were not familiar with the key features of the
work being performed.

Additionally, because USACE TAN technical specialists for specific technical areas were
not always available at the Bagram Area Office, project engineers and construction
representatives relied on technical support from the LOGCAP contractor to conduct
such inspections.       Although the project engineer and construction representative
relied on the LOGCAP contractor for technical inspections, the LOGCAP contractor
was not responsible for ensuring that MILCON contract requirements for the two
projects were met.       As a result, effective QA oversight was not demonstrated to
verify that contractors met contract requirements.

The project engineer could not explain why technical inspections were not regularly
performed before his arrival to the project in January 2013, but he did state that
technical specialists (mechanical, electrical, civil, and fire protection) had recently
been assigned to the USACE Bagram Area Office and that these officials will assist
in assessing the contractors’ construction efforts for the two SOF MILCON projects.
Furthermore, the project engineer stated that plans were underway to add additional
USACE TAN technical specialists to the USACE Bagram Area Office. Therefore, the
Commander, USACE TAN, should verify that project engineers and construction
representatives are taking steps to ensure that contractors are fully executing the
three-phase inspection process.         Also, the Commander, USACE TAN, should
ensure that project engineers schedule the technical inspections of contractors’
construction efforts.


Better Contracting Officer’s Representatives’ Oversight
Was Needed
As the designated CORs for the two SOF MILCON projects, project engineers did not always
                                         follow contract administration responsibilities
     As the designated CORs for          identified in the contracting officer’s designation
   the two SOF MILCON projects,
  project engineers did not always       memorandums. FAR Subpart 4.8, “Government
   follow contract administration        Contract Files,” states that contracting offices
  responsibilities identified in the     are to establish files containing the records
  contracting officer’s designation
                                         of all contractual actions such as QA records
           memorandums.

                                                                                          DODIG-2014-010 │ 15
Finding


                 that will provide, a complete history of the transaction to support the basis for making
                 informed decisions, actions taken, and to support reviews and investigations. The
                 contracting officer’s designation memorandums to the CORs included responsibilities
                 such as:

                            •	 verifying that the contractor perform the technical requirements of the
                              contract and performing inspections of those technical requirements,

                            •	 performing monthly surveillance inspections of contractor’s performance
                              and reporting performance results monthly,

                            •	 participating in the development of QA plans, and

                            •	 maintaining adequate records that describe and document the performance
                              of CORs’ duties.

                 The contracting officer’s designation memorandum also requires that contracting
                 records be maintained in the COR file and that, at a minimum, the COR file will contain
                 a QA plan, meeting minutes of inspections performed and the results, minutes of pre-
                 performance conferences, meetings with the contractor pertaining to the contract or
                 contract performance, and records related to the contractors’ QC system and plan.

                 FAR 46.104, “Contract Administration Office Responsibilities,” states that contract
                 administration responsibilities include developing and applying efficient procedures for
                 performing QA, performing all actions necessary to verify whether supplies and services
                 conform to contract requirements, and maintaining suitable records reflecting suitable
                 records, QA actions, and decisions.

                 For both projects, CORs did not always demonstrate that they effectively executed the
                 contracting officer’s designated contract administration responsibilities annotated
                 in their designation memorandums. For example, CORs did not have records such as
                 inspection and preconstruction meetings (minutes) with contractors, did not always
                 verify that contractors met the technical aspects of the contract, oversaw limited
                 inspections of contractors’ technical requirements, and did not participate in
                 development of QA plans.

                 Furthermore, pre-construction meetings such as mutual understanding meetings are
                 imperative because they establish a mutual understanding of the contractors’ roles
                 and responsibilities as they pertain to QC. Mutual understanding meeting minutes for
                 the HQ Complex were not available and for the Command and Control Facilities, the
                 minutes were not signed. Therefore, for the two SOF MILCON projects, which included
                 buildings such as the Troop Medical Clinic (Figure 3) and the Vehicle Maintenance
                 building (Figure 4), the CORs did not demonstrate that they fully completed contract
                 administration tasks throughout the life of the projects.
16 │ DODIG-2014-010
                                                                                               Finding




Figure 3. HQ Complex (Troop Medical Clinic)
Source: DoD OIG




Figure 4. Command & Control Facilities (Vehicle Maintenance Building)
Source: DoD OIG

Contracting officials have not demonstrated that the contractors’ construction efforts
conform to contract quality requirements as required by the FAR. Also, there was an
increased risk that incoming or acting in-country CORs would not have the information
and institutional knowledge that they needed to properly administer and monitor the
contracts. Therefore, the Commander, USACE TAN, should require QA officials and
CORs to maintain complete records to support the performance of their duties and
to support that contract and regulatory requirements were met as mandated by the
FAR and USACE.


                                                                                     DODIG-2014-010 │ 17
Finding



                 Stronger Quality Assurance Oversight Was Needed
                 Area and resident engineers need to take steps to ensure stronger QA oversight for
                 MILCON projects.          In November 2011, USACE TAN officials (QA, contracting, and
                 construction officials) prepared interim evaluations (total of two) for the two SOF
                 MILCON project contractors. In both evaluations, USACE TAN officials provided an
                 overall rating of the contractors as “unsatisfactory.” Table 3 show examples of the
                 two SOF MILCON contractors performance ratings conducted by USACE TAN in
                 November 2011.

                 Table 3. Examples of SOF MILCON Contractors Performance Ratings Conducted by
                 USACE TAN In November 2011
                                                                                          Rating
                        Contractors Area            Examples of
                           Evaluated              Description Area                                  Command and
                                                                          HQ Complex               Control Facilities
                                                    Quality of            Satisfactory                 Marginal
                                                   Workmanship
                            Quality
                                                    Quality of QC        Above Average                 Marginal
                                                   Documentation
                                                  Management of
                        Effectiveness of                                 Unsatisfactory             Unsatisfactory
                                                Resources/Personnel
                      Management/Business
                            Relations            Effectiveness of Job      Marginal                 Unsatisfactory
                                                   Site Supervision
                                                   Adherence to          Unsatisfactory             Unsatisfactory
                                                 Approved Schedule
                          Timeliness of         Resolution of Delays       Marginal                 Unsatisfactory
                          Performance
                                               Submission of Required      Marginal                    Marginal
                                                  Documentation
                             Overall                                     Unsatisfactory             Unsatisfactory


                 Overall, examples in Table 3 consist of description areas with ratings that were mostly
                 marginal or unsatisfactory that supported USACE TAN “unsatisfactory” rating of
                 the two SOF MILCON contractors.               QA officials did not conduct any additional
                 assessments since that time but stated in February 2013 that the contractors’ efforts
                 still had not significantly improved.         The project engineer stated that little or no
                 actions have been taken against the contractors as a result of their performance.
                 The project engineer also stated that additional penalties for holding contractors
                 accountable exist but acknowledged challenges in holding foreign contractors
                 accountable in Southwest Asia.

                 The project engineer further stated that to assist the contractors’ completion effort,
                 USACE TAN took steps in January 2013 to bring in additional technical personnel


18 │ DODIG-2014-010
                                                                                                                                         Finding



(engineers) to provide greater oversight of the contractors to ensure the technical
aspects of the SOF contracts are met.


Special Operations Forces’ Concerns With
Project Oversight
In a March 1, 2012, trip report14 prepared by USACE Transatlantic Division-Engineering
Technical Services, the officials informed QA officials of various meetings with
representatives from SOF in February 2012. In those meetings, SOF representatives
expressed their concerns whether the Bagram Area Office, having two QA
representatives covering all the SOF Complex buildings, could possibly monitor
construction at each site effectively. This audit demonstrated that the SOF concerns
were valid.


Oversight of Contractor Quality Control Should
Be Improved
As a result of not providing effective oversight for the two SOF projects, DoD is at increased
risk that the two SOF MILCON projects will not meet contract requirements. Because of
the challenges associated with working in an environment such as Afghanistan, the roles
of USACE TAN and Bagram Area Office QA officials are exceedingly important in the QA
process. In this environment, QA officials (area engineers, resident engineers, project
engineers, construction representatives) and CORs must do what is required in FAR
and USACE guidance to effectively manage and execute the QA program in determining
whether the contractor fulfilled contract obligations and will deliver the needed
facilities with the requisite quality.


Lack of Oversight Identified in Previous Audits
Two recent DoD IG audits have noted similar deficiencies pertaining to USACE TAN’s
lack        of    effective      oversight        in     Afghanistan.            Specifically,       DoD       IG        Reports
DODIG-2013-024, “U.S. Army Corps of Engineers Needs to Improve Contract
Oversight of Military Construction Projects at Bagram Airfield, Afghanistan,”
November 26, 2012, and DODIG-2012-089, “Better Contract Oversight Could
Have Prevented Deficiencies in the Detention Facility in Parwan, Afghanistan,”
May 17, 2012, identified USACE TAN’s lack of oversight pertaining to MILCON


	14	
       Trip report was titled “Communications Systems Quality Assurance Inspection Tour, Various Sites in Afghanistan,
       11-27 Feb 2012.”




                                                                                                                               DODIG-2014-010 │ 19
Finding



                 projects.   These two reports, coupled with the results of this report, indicate
                 a systemic lack of oversight for MILCON projects in Afghanistan by USACE TAN officials.

                 DoD IG Report DODIG-2013-024 noted that USACE TAN project engineers and
                 construction representatives did not provide adequate oversight for the construction
                 of four MILCON projects.     Resident engineers, project engineers, and construction
                 representatives affirmed that they were unaware of, did not see a need for, or did
                 not have time to follow internal guidance regarding QA for the MILCON projects
                 that were valued at $49.6 million. As a result, USACE TAN officials did not have
                 reasonable assurance that contractors’ quality control programs were effective or
                 that construction projects met contract requirements.

                 DoD IG Report DODIG-2012-089 found that USACE TAN officials did not provide
                 adequate oversight for the construction of a detention facility and were not in
                 compliance with their own internal oversight policies regarding the contractor’s
                 warranty.   Consequently, major infrastructure systems had recurring deficiencies
                 requiring replacement or repair. The identification of the same lack of adherence to
                 existing QA and contract oversight requirements demonstrates the need for recurring
                 outside oversight by other USACE officials.      The Commander, USACE Transatlantic
                 Division, should perform external reviews every 90 days of the USACE TAN QA program
                 in Afghanistan.


                 Conclusion
                 USACE TAN QA officials need to execute an effective oversight process of MILCON
                 projects at Bagram Airfield. The objective of QA is to monitor contractor performance
                 to ensure that the services received are consistent with contract requirements. To be
                 effective, QA requires the Government to provide appropriate and immediate onsite
                 monitoring of the services being performed. The effectiveness of oversight includes
                 QA and contracting officials compliance with FAR and USACE TAN requirements
                 for maintaining records that provide a complete history of transactions and actions
                 taken. In addition, executing the contracting officers’ responsibilities such as verifying
                 the contractor performed technical requirements of the contract and performing
                 inspections of those technical requirements is essential in validating contractors’
                 compliance with contract requirements. QA officials did not clearly demonstrate they
                 effectively executed oversight of the two SOF MILCON projects, and therefore, there
                 is an increased risk that the projects may not meet contract requirements.




20 │ DODIG-2014-010
                                                                                               Finding



Recommendations, Management Comments, and
Our Response
We   recommend      that      the   Commander,   U.S.   Army   Corps   of   Engineers,
Transatlantic Division:

      1.	 Perform external reviews every 90 days of the U.S. Army Corps of
            Engineers Transatlantic District-North quality assurance program
            in Afghanistan.

Deputy Commander, U.S. Army Corps of Engineers,
Transatlantic Division, Comments
The Deputy Commander, U.S. Army Corps of Engineers, Transatlantic Division,
responding for the Commander, U.S. Army Corps of Engineers, Transatlantic
District-North agreed to review the U.S. Army Corps of Engineers Transatlantic
District-North quality assurance program October 15-25, 2013.           However, the
Deputy Commander stated that the U.S. Army Corps of Engineers Transatlantic Division
would assess the quality assurance program quarterly as deemed necessary instead
of every 90 days as we recommended.


Our Response
Comments from the Deputy Commander partially addressed the recommendation.
Because the U.S. Army Corps of Engineers Transatlantic District-North quality
assurance program oversight has consistently been ineffective, continuous monitoring
of the program every 90 days is necessary. Therefore, the Deputy Commander needs
to establish a timeframe to continuously monitor the Transatlantic District-North
quality assurance program to reduce the risk that projects in Afghanistan are not
meeting contract requirements.       We request the Commander, U.S. Army Corps of
Engineers Transatlantic Division provide additional comments to the recommendation
by December 20, 2013.

We recommend that the Commander, U.S. Army Corps of Engineers, Transatlantic
District-North:

      2.	   Establish written procedures for a recurring external verification
            process that will determine that:




                                                                                     DODIG-2014-010 │ 21
Finding



                            a.	 Quality assurance officials assigned to Special Operations Forces
                                  military construction projects complete the required Statement of
                                  Understanding and Compliance.

                 Deputy Commander, U.S. Army Corps of Engineers,
                 Transatlantic Division, Comments
                 The Deputy Commander, U.S. Army Corps of Engineers, Transatlantic Division,
                 responding for the Commander, U.S. Army Corps of Engineers, Transatlantic District-
                 North, agreed. The Deputy Commander stated that a revised Statement of Understanding
                 and Compliance has been executed and that all project personnel assigned to the
                 Special Operations Forces military construction projects have signed the document as of
                 June 23, 2013.


                 Our Response
                 Comments from the Deputy Commander, U.S. Army Corps of Engineers, Transatlantic
                 Division, were responsive, and no additional comments are required.

                            b.	Project engineers develop a quality assurance plan at project
                                  inception and update the plan as needed during the project.

                 Deputy Commander, U.S. Army Corps of Engineers,
                 Transatlantic Division, Comments
                 The Deputy Commander, U.S. Army Corps of Engineers, Transatlantic Division,
                 responding for the Commander, U.S. Army Corps of Engineers, Transatlantic District-
                 North, agreed.      Specifically, the Deputy Commander stated that a revised quality
                 assurance plan has been completed and that all personnel working on the Special
                 Operation Forces project are aware of its content and acknowledged the document as of
                 June 15, 2013.


                 Our Response
                 Comments from the Deputy Commander, U.S. Army Corps of Engineers, Transatlantic
                 Division, partially addressed the recommendation. Specifically, the Deputy Commander
                 did not clarify whether project engineers would update the supplemental project
                 quality assurance plans as needed during the project as recommended.           However,
                 U.S. Army Corps of Engineers Transatlantic District-North officials informed us in
                 October 2013 that the two Special Operations Forces military construction projects
                 are scheduled for completion in December 2013. Therefore, updating supplement
                 project quality assurance plans is not needed and as a result, further management
                 comments are not required.


22 │ DODIG-2014-010
                                                                                                    Finding



           c.	Project engineers approve complete contractors’ quality control
              plans for military construction projects before contractors’ start
              construction and verify that contractors update quality control plans
              as needed.

Deputy Commander, U.S. Army Corps of Engineers,
Transatlantic Division, Comments
The Deputy Commander, U.S. Army Corps of Engineers, Transatlantic Division, responding
for the Commander, U.S. Army Corps of Engineers, Transatlantic District-North, agreed.
The Deputy Commander stated that quality control plans for both projects have been
approved and that he has emphasized to project personnel that an approved quality
control plan must be submitted and approved before initiating construction. He stated
when contract modifications are issued; a revised quality control plan will be obtained, if
appropriate. He also stated follow up would occur during U.S. Army Corps of Engineers,
Transatlantic Division’s in-country visit planned for October 15-25, 2013.


Our Response
Comments from the Deputy Commander, U.S. Army Corps of Engineers, Transatlantic
Division, were responsive, and no additional comments are required.

           d.	Project engineers, construction representatives, and contracting
              officer’s representatives maintain complete records to support the
              performance of their contract oversight duties.

Deputy Commander, U.S. Army Corps of Engineers,
Transatlantic Division, Comments
The Deputy Commander, U.S. Army Corps of Engineers, Transatlantic Division,
responding for the Commander, U.S. Army Corps of Engineers, Transatlantic District-North,
agreed. The Deputy Commander stated that the Commander, Transatlantic Afghanistan
District, and his engineering and construction staff will emphasize the requirement
to maintain contract oversight documents, records, and the Resident Management
System. He also stated follow up would occur during U.S. Army Corps of Engineers,
Transatlantic Division’s in-country visit planned for October 15-25, 2013.


Our Response
Comments from the Deputy Commander, U.S. Army Corps of Engineers, Transatlantic
Division, were responsive, and no additional comments are required.




                                                                                          DODIG-2014-010 │ 23
Finding



                            e.	 Project engineers and construction representatives are taking steps
                               to validate that contractors are fully executing the three-phase
                               inspection process.

                 Deputy Commander, U.S. Army Corps of Engineers,
                 Transatlantic Division, Comments
                 The Deputy Commander, U.S. Army Corps of Engineers, Transatlantic Division,
                 responding for the Commander, U.S. Army Corps of Engineers, Transatlantic District-
                 North, agreed. The Deputy Commander stated the Commander, Transatlantic Afghanistan
                 District, and his engineering and construction staff will emphasize the requirement to
                 maintain contract oversight documents, records, and meeting minutes. He also stated
                 follow up would occur during U.S. Army Corps of Engineers, Transatlantic Division’s
                 in-country visit planned for October 15-25, 2013.


                 Our Response
                 Comments from the Deputy Commander, U.S. Army Corps of Engineers, Transatlantic
                 Division, were responsive, and no additional comments are required.

                            f.	 Project engineers schedule the technical inspections of contractor’s
                               construction efforts.

                 Deputy Commander, U.S. Army Corps of Engineers,
                 Transatlantic Division, Comments
                 The Deputy Commander, U.S. Army Corps of Engineers, Transatlantic Division,
                 responding for the Commander, U.S. Army Corps of Engineers, Transatlantic
                 District-North, agreed. Specifically, the Deputy Commander stated the Commander,
                 Transatlantic Afghanistan District and his engineering and construction staff will
                 emphasize the requirement for technical inspections of mechanical, electrical, and
                 structural areas to ensure compliance with Transatlantic Afghanistan District quality
                 assurance plan.    Furthermore, these inspections will be conducted by personnel
                 with full knowledge of the technical area being addressed and documented to ensure
                 effective QA oversight can be verified and demonstrated. He also stated follow up
                 would occur during U.S. Army Corps of Engineers, Transatlantic Division’s in-country
                 visit planned for October 15-25, 2013.


                 Our Response
                 Comments from the Deputy Commander, U.S. Army Corps of Engineers, Transatlantic
                 Division, were responsive, and no additional comments are required.



24 │ DODIG-2014-010
                                                                                                     Appendixes



Appendix A
Scope and Methodology
We conducted this performance audit from September 2012 through September 2013
in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our objective was to determine whether DoD provided effective oversight of
military construction projects in Afghanistan.            Specifically, our objective was to
determine whether the USACE is properly monitoring contractor performance
and    adequately       performing     QA   oversight     responsibilities    for    construction
projects for SOF at Bagram Airfield, Afghanistan. To accomplish this objective, we
reviewed documents dated from the notice to proceed date to May 2013 related
to MILCON project requirements, including the contracts, contract modifications,
QA daily reports, DD Form 1354, contractor QC plans, QA plans, three-phase
control    schedules,    weekly      progress   meeting    minutes,   Fluor     Intercontinental
deficiency reports, and ENG Form 4025, “Transmittal of Shop Drawings, Equipment
Data, Material Samples, or Manufacturer’s Certificates of Compliance.”

We contacted staff and conducted interviews, as appropriate, with USACE TAN
officials (Bagram Area Office). USACE officials we interviewed included contracting
officers, area engineers, CORs, resident engineers, project engineers, and construction
representatives.    We conducted a site visit at the two selected projects, obtained
source documentation, and observed and examined key documents related to
USACE TAN QA oversight. We obtained and analyzed documents from USACE’s Resident
Management System and compared them to statements and documents provided by
USACE officials.

We reviewed Federal, DoD, Army, and USACE regulations, instructions, and guidance.
Specifically, we reviewed the FAR; Defense Federal Acquisition Regulation Supplement;
Army      Engineering     Regulation    1180-1-6,   “Construction     Quality       Management,”
September 30, 1995; and USACE Afghanistan Engineering District, “District-Level
QA Plan for Construction,” April 2011.

In July 2012, USACE TAN officials provided a list of 43 ongoing MILCON projects
at Bagram Airfield, Afghanistan. Of the 43 projects, we selected projects that were
individually valued at more than $10 million and had not been selected in prior
audits. Twenty-three projects met the above criteria. We nonstatistically selected
                                                                                                DODIG-2014-010 │ 25
Appendixes



                 2 (SOF Complexes) of the 23 projects totaling about $37.6 million for review. The
                 two SOF projects selected were “Project No. 70037, SOF HQ Complex (Phase I) -
                 Contract No. W912ER-10-C-0003” and “Project No. 72126, SOF Command and Control
                 Facilities (Phase II) - Contract No. W912ER-10-C-0048.”


                 Use of Computer-Processed Data
                 We relied on computer-processed data from the Resident Management System.
                 The Resident Management System is used by USACE TAN to maintain and update
                 documentation related to construction projects. To verify the reliability of data, we
                 tested documents provided by USACE by comparing those documents to what was
                 recorded in Resident Management System. From these procedures, we are confident
                 that the documentation in Resident Management System was sufficiently reliable
                 for the purpose of acquiring construction oversight documents for our analysis of the
                 effectiveness of MILCON project oversight in Afghanistan.


                 Prior Coverage
                 During the last 5 years, the Department of Defense Office of Inspector General issued
                 six reports related to military construction projects in Afghanistan. Unrestricted DoD IG
                 reports can be accessed at http://www.dodig.mil/audit/reports.


                 DoD IG
                 DoD IG Report No. DODIG-2013-024, “U.S. Army Corps of Engineers Needs to Improve
                 Contract Oversight of Military Construction Projects at Bagram Airfield, Afghanistan,”
                 November 26, 2012

                 DoD IG Report No. DODIG-2012-089, “Better Contract Oversight Could Have Prevented
                 Deficiencies in the Detention Facility in Parwan, Afghanistan,” May 17, 2012

                 DoD IG Report No. DODIG-2012-057, “Guidance Needed to Prevent Military Construction
                 Projects from Exceeding the Approved Scope of Work,” February 27, 2012

                 DoD IG Report No. D-2010-059, “Contingency Contracting: A Framework for Reform,”
                 May 14, 2010

                 DoD IG Report No. SPO-2009-005, “Assessment of Electrical Safety in Afghanistan,”
                 July 24, 2009

                 DoD IG Report No. D-2008-119, “Construction Contracting Procedures Implemented by
                 the Joint Contracting Command-Iraq/Afghanistan,” September 29, 2008


26 │ DODIG-2014-010
                                                                                                                         Appendixes




  Appendix B
  Diagram of Special Operations Forces Complex at
  Bagram Airfield

  SOF COMPLEX - UNDER CONSTRUCTION
           PROJECT                     KTR
           Barracks 11-14              Zafer

           SOF Phase 1                 EMTA

           SOF Phase 2                 METAG
                                                                                          SOJTF HQ
           Barracks Phase 4            Yuksel                                                            BARRACKS
                                                                                                           PH 4
           SOF DFAC                    Zafer
           SOJTF HQ (TSF)              Yuksel
                                                                                                         8
           Barracks 15-18              77
           Barracks 19                 77


                                                                Barracks 11&12
                                      VM                                                   Barracks 18
                                                                       11
                4   5                             6     7
                                                                                            Barracks 17
                                                                       12

             Barracks                            Barracks MWR                               Barracks 19
               Ph 4                                Ph 4                      ECP
                                       RLB
                                                                                            Barracks16

         Warehouse
                                                 Comm                                       Barracks 15
                                                                      TOC
                                                        JOC                 TMC    DFAC
                            RLB RLB        LSS                Admin
Afghanistan Engineer District-North


  LEGEND:



  Admin		                 Administration                            RLB		            Re‑locatable Barracks
  Comm		                  Communications                            SOF		            Special Operations Forces
  DFAC		                  Dining Facility                           SOJTF HQ	        Special Operations Joint Task 	
  ECP		                   Entry Control Point                       		               Force Headquarters
  EMTA		                  Elektrik Makine Ticaret A.S.              TMC		            Troop Medical Clinic
  JOC		                   Joint Operations Center                   TOC		            Tactical Operations Center
  KTR		                   Contractor                                VM		             Vehicle Maintenance
  LSS		                   Latrine‑Shower‑Shave
  MWR		                   Morale, Welfare, and 		
  		                      Recreation Center
  PH		                    Phase



                                                                                                                    DODIG-2014-010 │ 27
Management Comments




                 Management Comments
                 U.S. Army Corps of Engineers




28 │ DODIG-2014-010
                                        Management Comments



U.S. Army Corps of Engineers (cont’d)




                                              DODIG-2014-010 │ 29
Management Comments



                 U.S. Army Corps of Engineers (cont’d)




30 │ DODIG-2014-010
                                                Acronyms and Abbreviations




Acronyms and Abbreviations
     COR Contracting Officer’s Representative
   DFOW Definable Features of Work
      FAR Federal Acquisition Regulation
      HQ Headquarters
  LOGCAP Logistics Civil Augmentation Program
  MILCON Military Construction
      QA Quality Assurance
      QC Quality Control
     SOF Special Operations Forces
     TAN Transatlantic District-North
   USACE U.S. Army Corps of Engineers




                                                           DODIG-2014-010 │ 31
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
